<html>
<title> - FREEDMEN'S BUREAU PRESERVATION ACT: ARE THESE RECONSTRUCTION ERA RECORDS BEING PROTECTED</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





   FREEDMEN'S BUREAU PRESERVATION ACT: ARE THESE RECONSTRUCTION ERA 
                        RECORDS BEING PROTECTED

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 18, 2000

                               __________

                           Serial No. 106-277

                               __________

       Printed for the use of the Committee on Government Reform




  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
75-060 PDF                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
 Internet: bookstore.gpo.gov Phone: Toll free (866) 512-1800; DC area
                             (202)512-1800 
     Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                 Earl Pierce, Professional Staff Member
                         Elizabeth Seong, Clerk
                    Trey Henderson, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 18, 2000.................................     1
Statement of:
    Millender-McDonald, Hon. Juanita, a Representative in 
      Congress from the State of California......................     4
    Swygert, H. Patrick, president, Howard University, 
      accompanied by Dr. Thomas C. Battle, director, the Howard 
      University Mooreland-Spingarn Research Center; and Dr. 
      Elizabeth Clarke Lewis, director of the public history 
      project, Howard University.................................     8
    Washington, Reginald, African American Genealogy Subject Area 
      Specialist, National Archives and Records Administration; 
      Michael Kurtz, Assistant Archivist of the United States for 
      Records Services, National Archives and Records 
      Administration; Professor Tony Burroughs, adjunct professor 
      of genealogy, Chicago State University; and Henry Wiencek, 
      resident fellow, Virginia Foundation for the Humanities....    24
Letters, statements, etc., submitted for the record by:
    Burroughs, Professor Tony, adjunct professor of genealogy, 
      Chicago State University, prepared statement of............    36
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Kurtz, Michael, Assistant Archivist of the United States for 
      Records Services, National Archives and Records 
      Administration, prepared statement of......................    31
    Swygert, H. Patrick, president, Howard University, prepared 
      statement of...............................................    12
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     7
    Washington, Reginald, African American Genealogy Subject Area 
      Specialist, National Archives and Records Administration, 
      prepared statement of......................................    26
    Wiencek, Henry, resident fellow, Virginia Foundation for the 
      Humanities, prepared statement of..........................    49

 
   FREEDMEN'S BUREAU PRESERVATION ACT: ARE THESE RECONSTRUCTION ERA 
                        RECORDS BEING PROTECTED

                              ----------                              


                      WEDNESDAY, OCTOBER 18, 2000

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn and Kanjorski.
    Also present: Representative Millender-McDonald.
    Staff present: J. Russell George, staff director and chief 
counsel; Earl Pierce, professional staff member; Bonnie Heald, 
director of communications; Elizabeth Seong, clerk; George 
Frazer, intern; Pearl-Alice Marsh, senior policy advisor for 
Representative Millender-McDonald; Trey Henderson, minority 
counsel; and Jean Gosa, minority clerk.
    Mr. Horn. A quorum being present, the Subcommittee on 
Government Management, Information, and Technology will come to 
order.
    135 years ago yesterday, 40-year-old former slave George 
Mason died in City Point, VA. His official death certificate is 
one simple line in a ledger book so tattered by age that a 
ribbon holds its fading pages together. If there are other 
records about Mr. Mason's life, they are likely buried 
somewhere in the millions of pages of deteriorating documents 
from the former Freedmen's Bureau.
    We are here today to examine H.R. 5157, the ``Freedmen's 
Bureau Records Preservation Act of 2000,'' introduced by 
Representatives Juanita Millender-McDonald of California and 
J.C. Watts of Oklahoma. This bill requires the Archivist of the 
United States to use all available technology to preserve and 
catalog the records of the Freedmen's Bureau.
    On March 3, 1865, the 38th Congress created the Bureau of 
Refugees, Freedmen and Abandoned Lands, known as the Freedmen's 
Bureau. This bureau was given the authority to supervise and 
manage activities relating to the newly emancipated African 
Americans. Following the bureau's closure on June 30, 1872, the 
records from its regional offices were sent to the National 
Archives for storage where, to this day, these vital links to 
history languish in their original state, due to lack of 
attention and funding.
    Today, we will examine the condition of these records. We 
will also discuss how these records could be maintained and 
preserved to help millions of Americans--now and in future 
generations--better understand their heritage.
    We welcome our witnesses, and look forward to their 
testimony. I am glad to see my neighbor from southern 
California, Juanita Millender-McDonald, and we would be glad to 
listen to your testimony on this.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] T5060.022
    
STATEMENT OF HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Millender-McDonald. Thank you, Mr. Chairman. I thank 
you for your sensitivity to this issue. Good morning to Mr. 
Chairman and members of the subcommittee. I am very pleased to 
come before you this morning, and I am sure to be joined by 
Representative J.C. Watts, my colleague that is cosponsoring 
this piece of legislation. We come to you this morning to share 
the reasons why we have proposed the Freedmen's Bureau 
Preservation Act of 2000. The Bureau of Refugees, Freedmen and 
Abandoned Lands, properly called the Freedmen's Bureau, was 
established in the War Department by an act of this government 
on March 3, 1865. This act was the culmination of several years 
of efforts as the U.S. Government, embroiled in Civil War, 
sought to settle the slave problem for the United States.
    From 1619 to 1800, more than 660,000 African men, women, 
and children were torn from their homelands in West Africa, 
herded onto ships and brought to North America as slaves. While 
the southern economy was flourishing from slave labor, the 
country simultaneously was building a new democracy based on 
the principles of liberty and individual freedom. As the 
democracy debate clarified issues of government and 
citizenship, grave contradictions were drawn between slavery 
and our Nation's first principle of individual freedom. As 
President Lincoln said, the government could not endure 
permanently half slave and half free.
    On July 4, 1861, President Lincoln in a speech to Congress 
said that the war was ``a People's contest . . . a struggle for 
maintaining in the world, that form and substance of 
government, whose leading object is to elevate the condition of 
men . . ..'' and this War Between the States was, among other 
things, a war about the condition of the slaves.
    This very body was engaged in the overwhelming challenge of 
moving millions of slaves from bondage to freedom. In March 
1864, the House passed a bill by a slender majority of two that 
established a bureau for freed men in the War Department. The 
Senate reported a substitute bill to the House too late for 
action attaching the Bureau to the Treasury Department.
    After the 1864 elections, the House and Senate conferred 
and proposed a bureau independent of either War or Treasury. In 
the political machinations between these elected 
Representatives, the Senate could not agree with the House. A 
new conference committee was appointed which finally in 1865 
established in the War Department a Bureau of Refugees, Freed 
Men and Abandoned Lands. Thus, the War Department set about the 
enormous task of documenting, supervising and managing the 
transition of slaves from bondage to freedom.
    The Bureau deployed field offices in Alabama, Arkansas, the 
District of Columbia, Florida, Georgia, Kentucky, Louisiana, 
Maryland, Delaware, Mississippi, Missouri, North Carolina, 
South Carolina, Tennessee, Texas and Virginia. These offices 
were responsible for all relief and educational activities 
relating to refugees and freed men, including issuing rations, 
clothing, and medicine. The Bureau also assumed custody of 
confiscated lands or property in the former Confederate States, 
border States, District of Columbia, and Indian territory. The 
Bureau records that were created and maintained became the 
documented history of the greatest social undertaking in this 
country's history.
    During this tumultuous period of transformation between 
1865 and 1872, the Freedmen's Bureau recorded the movements of 
slaves from community to community and State to State. For 
historians and genealogists these records provide the critical 
link between the Civil War and the 1870 census, the first one 
to list African Americans by name. Former slaves, recognized 
formerly in government records only by sex, age and color, were 
named in the Bureau records as individuals in marriage, 
government rations lists, lists of colored persons, labor 
contracts, indentured contracts for minors, medical records, 
and as victims of violence.
    Many historical and genealogical associations like the 
African American Historical and Genealogical Society, the 
African American Research Project, the Association for the 
Study of African American Life and History, the Internet-based 
Afrigeneas, and annual gatherings like the family reunion have 
popularized African American genealogy and historical research. 
African Americans, like many other Americans, look to official 
records for their ancestors. As ship manifests are the vital 
link between European Americans and their European ancestors, 
the Freedmen's Bureau records are the link for African 
Americans to their slave and African ancestors.
    The original Freedmen's Bureau records are presently 
preserved at the National Archives and Records Administration 
in Washington, DC. Greater access to these records is a high 
priority for millions of Americans interested in Civil War and 
post-Civil War history and millions of African Americans 
interested in their family genealogy. There are many 
historians, genealogists, and family researchers interested in 
exploring the vast contents of these records.
    H.R. 5157 calls on the Archivist to microfilm the 
Freedmen's Bureau records, create a surname index, and put this 
index on-line. Innovative imaging and indexing technologies can 
make these records easily accessible to the public, including 
historians, genealogists, novice genealogy enthusiasts, and 
students.
    In fact, the Internet has transformed genealogy research. 
The research word ``genealogy'' lists 2,367,600 matches on-line 
and is growing daily. I took the liberty of a quick search for 
the chairman and ranking member's family names and came up with 
the following results, Mr. Chairman. The search string ``Horn 
Genealogy'' results in over 16,600 matches on-line and the 
search string ``Turner Genealogy'' resulted in 34,900 matches.
    Some major Internet efforts include: The Mormon's Family 
History Center has on-line resources that serve all ethnic 
groups.
    The USGenWeb project consists of volunteers who provide 
Internet Web sites for genealogical research in every county 
and every State of the United States.
    Afrigeneas is the on-line African American genealogy 
research group.
    JewishGen is the premier source of Jewish genealogy 
worldwide.
    And these are just a few. The Internet abounds with Web 
sites and resources for every identity group and family name 
imaginable.
    As a member of the House of Representatives, descendant of 
slaves and a genealogy enthusiast, I urge the subcommittee to 
recommend passage of this bill to the Committee on Government 
Reform. I look forward to H.R. 5157 passing the House and 
Senate and becoming law so this period in our history can 
become known even further to the American citizens interested 
in our past.
    I thank you, Mr. Chairman.
    Mr. Horn. We thank you for that very good overview. I think 
you have time to sit with the panel this morning.
    Ms. Millender-McDonald. Yes.
    Mr. Horn. We are delighted to have you. There is unanimous 
consent.
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED] T5060.001
    
    Mr. Horn. I have one question. The Archives has a pilot 
project with a school, the University of Florida, to preserve 
and index a few of the Freedmen's Bureau records. That is one 
possibility of sub possibilities. The other is the National 
Historical Publications and Records Commission, which is part 
of the Archives and makes grants.
    Ms. Millender-McDonald. Right.
    Mr. Horn. What do you feel would be the best approach from 
the research you've done on this? Would it go directly to the 
Archives? Would it go to a private sector, public sector pilot 
project, as apparently the University of Florida is, or work 
through the National Historical Publications and Records 
Commission?
    Ms. Millender-McDonald. Thank you for that question. As I 
have pondered this, I would like to see extended pilot programs 
in a lot of the HBCUs, or at least some of them where the 
States that I have listed have, I guess, the wherewithal to 
provide this pilot program. And given that there are States 
that currently have access to this, we should extend those 
pilot programs. I cannot but think of the history in the years 
that I talked with my grandmother and others and they said if 
you don't know your history, you are damned to repeat it, and 
if you don't know where you have come from you don't know where 
you are going, and I think our younger generation need to get 
some insight as to the historical perspective that these 
records can afford.
    Mr. Horn. You are absolutely right on that. I go into 50 to 
100 classrooms a year and I am a little disappointed sometimes 
about the lack of knowledge of history of the United States.
    Ms. Millender-McDonald. Absolutely.
    Mr. Horn. We are glad that you will stay with us. Mr. 
Kanjorski has joined us as the ranking member, and we will call 
up panel two. President Swygert of Howard University is 
accompanied by Dr. Thomas C. Battle, the Director of the Howard 
University Mooreland-Spingarn Research Center and Dr. Elizabeth 
Clarke Lewis, Director of the Public History Project, Howard 
University. We have a rule in the committees of Government 
Reform that we swear all witnesses except Members of Congress.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that three of you have 
affirmed. We will begin with President Swygert. We are 
delighted to have you here. You run a very distinguished 
university.

STATEMENTS OF H. PATRICK SWYGERT, PRESIDENT, HOWARD UNIVERSITY, 
   ACCOMPANIED BY DR. THOMAS C. BATTLE, DIRECTOR, THE HOWARD 
    UNIVERSITY MOORELAND-SPINGARN RESEARCH CENTER; AND DR. 
ELIZABETH CLARKE LEWIS, DIRECTOR OF THE PUBLIC HISTORY PROJECT, 
                       HOWARD UNIVERSITY

    Mr. Swygert. Thank you, Mr. Chairman, for this opportunity 
to testify on behalf of this incredibly important piece of 
legislation. Mr. Chairman, as you noted, I am accompanied today 
by Dr. Elizabeth Clarke Lewis and Dr. Thomas Battle, who is 
director of the Mooreland-Spingarn Research Center, the largest 
collection of African American materials outside of the Library 
of Congress. I am also accompanied by Ms. Donna Brock, who is 
the assistant vice president of University Communications.
    Mr. Chairman, I would like to take this opportunity to 
especially acknowledge and thank the gentleman to your left, 
Mr. Russell George, who is a great son of Howard University. We 
very much appreciate his enthusiasm for this piece of important 
legislation and his alma mater.
    Mr. Horn. We appreciate that. We keep Russell George very 
busy. You have taught him how to think well and how to get 
moving. When this came up, we didn't have to take 2 seconds to 
know this is what we wanted to do.
    Mr. Swygert. Thank you very much.
    If I may, I would like to extend on behalf of the entire 
Howard University family our special thanks to Representative 
Juanita Millender-McDonald, and our thanks as well to 
Representative J.C. Watts. Congressman Watts has been a 
frequent visitor to our campus. We very much appreciate his 
initiative as well.
    Mr. Chairman, when I was invited to appear here today, I 
felt privileged to know that I would be a key spokesperson on 
behalf of the University's student body, alumni, faculty, and 
extended family on an issue that deeply touches the hearts of 
all of us, as well as the hearts of those generations of 
individuals whose lives have been so significantly impacted by 
the Freedmen's Bureau. Indeed, its historical and emotional 
aspects are significant.
    As you know, Mr. Chairman, in 1866, Howard University was 
named after General Oliver Otis Howard, who was the 
Commissioner of the Freedmen's Bureau. Since its inception, 
Howard University's historical relationship with the U.S. 
Congress has traversed 134 years; and we continue to enjoy this 
relationship, a relationship that began and grew out of the 
Freedmen's Bureau. So, in some larger sense, Mr. Chairman, you 
are seeing a product, live and in person, of the continuing and 
enduring legacy of the Freedmen's Bureau itself.
    Mr. Chairman, I would like to accomplish three things. I 
would like to first speak to the immediacy, the impact of the 
records themselves as it relates to the African American 
community and its definition of self. Second, as you have 
already heard and will continue to hear as this continues, 
these are primary documents that are irreplaceable.
    Third, Mr. Chairman, I am here to assure you that African 
Americans and all Americans celebrate and cheer this effort. As 
to the definition of self and as to the definition of people, 
as the Congresswoman has already indicated, if you don't know 
where you've come from, you certainly will not be able to 
figure out where you are headed. These documents, Mr. Chairman, 
help with that issue and more. They give proof positive of the 
vitality, of the energy, of the hopes, and prayers, and 
aspirations of people who have recently been enslaved. They 
continue to speak with relevance and passion to issues of 
today.
    It is, therefore, a matter of both great emotional concern 
to us, historical importance and, most importantly perhaps as 
well, Mr. Chairman, they confirm and reaffirm that persons who 
were only recently freed were persons who were freed and 
continued to maintain a whole human spirit.
    The second issue I would like to share with you, Mr. 
Chairman, is based upon my experience as a Howard University 
history student. Like Mr. George, I too am a graduate of Howard 
University, and an alumnus of the undergraduate school and the 
School of Law. It was my privilege to be a history major at 
Howard University, and in that capacity we were taught a number 
of principles. A number of principles were shared with us.
    One of the first principles of course was to distinguish 
secondary from primary sources. And primary sources, as you 
know, Mr. Chairman, tend to be closer to the historical truth 
than not. When one surveys the documents that are found within 
the collection known as the Freedmen's Bureau Collection, one 
sees primary sources in the form of letters and testimonials 
and first person narratives that ring true. They rang true more 
than 100 years ago and they continue to ring true today. These 
documents are irreplaceable. But, there is an urgency, Mr. 
Chairman, an urgency that we get about the very serious 
business of preservation of these documents.
    Mr. Chairman, I said a moment ago that the African American 
community, and indeed all Americans, will celebrate and are 
cheering this effort. I mean that in all sincerity. This is 
about African American history and American history. I think 
sometimes, Mr. Chairman, our focus is too narrow and our 
definition too narrow as well. This is American history. It is 
a history that we can all look back upon and celebrate because 
it tells us where we have been as a people, as a nation, and 
where we have come from, and we have come a mighty long way. I 
think there is cause to celebrate and I think it will be 
celebrated and cheered by us all.
    Before I conclude my formal remarks, and I have submitted 
my remarks for the record, I would like to speak to one issue 
in particular in terms of the way and the manner in which the 
records continue to be maintained and handled. The records have 
been safeguarded by the National Archives and Records 
Administration and generally made available to the American 
people. However, Mr. Chairman, I am concerned that people who 
want access to these records encounter undue difficulties in 
getting to the information that they seek. The records are too 
complex if one seeks to identify names and locations of people. 
The guides for accessing the levels of records and the variety 
of information embedded in the records need improvement to 
become more user friendly.
    The Congresswoman spoke to this issue in the context of the 
Internet. I see three areas of improvement. First, put all 
available inventories on-line in the NARA Web site. Currently 
there are four inventories that describe these records, an 
inventory for the headquarters of Washington and three volumes 
for the field offices which cover the former Confederate and 
border States. I have been informed that the latter three 
volumes can only be found with the main NARA office in 
Washington, DC, although some efforts have been made to send 
them to the regional archives offices.
    Second, the microfilming needs to be continued with a 
selective process in place. Currently records that pertain to 
education for some States and records of the assistant 
commissioner for a few States are microfilmed. I have been 
informed that the Freedmen's Bureau records are voluminous, and 
some of the more bureaucratic records may not need 
microfilming. However, these records which contain information 
on people and events should receive high priority.
    Last, there needs to be a comprehensive name and subject 
index for the entire record group. There are many small indices 
that pertain to individual record series, and these are 
helpful. For example, in the headquarters records of 
Washington, DC, there are several indices and registers of 
letters, but in the field offices there are too few indices to 
assist people in their research process. Reports often come 
with no indices, and the volume of records precludes any 
systematic searches. I believe comprehensive index systems for 
each State where Bureau officials operate can provide 
directions for individuals to search names and subject.
    Again, Mr. Chairman, I speak with enthusiasm for this 
legislation. I celebrate with you. I applaud you and your 
colleagues for this initiative, and if I may respond in part to 
the last question posed to the Congresswoman, I think the HBCU 
community has the capacity today, certainly Howard University 
has the capacity to participate in appropriate pilot programs 
with appropriate oversight and assessment, and we would be 
prepared to do so with enthusiasm.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Swygert follows:]
    [GRAPHIC] [TIFF OMITTED] T5060.002
    
    [GRAPHIC] [TIFF OMITTED] T5060.003
    
    [GRAPHIC] [TIFF OMITTED] T5060.004
    
    [GRAPHIC] [TIFF OMITTED] T5060.005
    
    [GRAPHIC] [TIFF OMITTED] T5060.006
    
    [GRAPHIC] [TIFF OMITTED] T5060.007
    
    [GRAPHIC] [TIFF OMITTED] T5060.008
    
    Mr. Horn. We thank you, and I might add when I introduce 
you, your full statement is put in the record. The staff and 
we, when we get back to town, we read them all prior to the--in 
this day and age prior to the hearing starting, and we have 
fine testimony from all of you on such short notice. Next is 
Dr. Thomas C. Battle.
    Mr. Battle. Mr. Chairman, I don't have any prepared 
records, but I would like to speak to the importance of 
preserving primary documents. These are the kinds of materials 
which are essential to research of all kinds. The Nation has 
recently undertaken legislation to celebrate, to document, and 
to preserve those issues related to the Underground Railroad. 
That was a very important effort.
    I would think that looking at the transition into freedom, 
sort of a domestic Marshal Plan, which the Freedmen's Bureau 
was about, that preserving these records and offering them for 
research to scholars is vitally important to understanding all 
of the American experience. The Civil War continues to be a 
subject of very major interest throughout our Nation. And as we 
have looked at the Underground Railroad and looked at the Civil 
War, it is important for us to preserve these records that are 
important to the reconstruction of our Nation, and I would urge 
in continuing the efforts of the National Archives that we 
provide whatever support is necessary to ensure that these 
records are preserved for the future.
    Mr. Horn. What has been your experience with various 
libraries in the States, with the National Archives, etc? How 
do you feel about where the possibility should be to use these? 
It is probably going to be a mix of all sorts of things.
    Mr. Battle. It is going to be a mix. The interest in this 
research and genealogy is a nationwide interest. Certainly 
there is detrimental effect when scholars have to travel to a 
sole source when the opportunity exists to distribute them to a 
wider audience. I think we could benefit from scholarship 
pursued in that manner. Certainly a centralized location is 
beneficial, but the distribution of materials is what we should 
be about today.
    Mr. Horn. I think with the Internet they are right at our 
fingertips, if we can get it into a data form that any citizen 
could get in their home or library, or even their high school 
libraries, would be important. And, of course, we do have 
Federal depositories, as we all know, in almost every 
congressional district in the land and that would be another 
possibility to put it in. Sometimes even though they are 
Federal depositories, they are under city or county or State 
and some of them are much better put to use than some of the 
others. So, if we want to have this, I think the Internet is 
one solution; but we have to get to the raw data before they 
expire. When I heard what our staff found, and some of the 
records really were pitiful, we need to deal with that.
    So, I thank you, Dr. Battle, for your insight. We now go to 
the next witness, Elizabeth Clarke Lewis, Director of the 
Public History Project at Howard University.
    Ms. Lewis. Good morning. Very briefly, I would like to say 
we thank you for the opportunity to speak this morning. In 
addition, I would like to remind all of us as a historian that 
there is a world of history to be discovered in these records. 
This was a moment in time in which people were walking out of 
slavery and into new opportunities, and their voices moved from 
the margins to the center in these records, and it is critical 
for us to put into place the apparatus, for us to not only hear 
these voices but understand the words that they were saying.
    I would like to add that this was a time when people were 
also walking into history, that the Federal Government was 
interceding to help former slaves as well as non-former slaves 
acquire land and move forward and modernize the Nation.
    We understand without question that the textures of the 
interior worlds of people are very important. These records 
allow us to create linkages between those internal worlds and 
the external developments and movements of the larger world. 
These records are significant because they create without 
question a strong foundation for us to understand families, 
local history, regional changes, as well as the apparatus of a 
Nation put into place for lands that were given to individuals 
of non-African descent, free lands that were made available to 
them as refugees also.
    As has been stated, these records truly are American 
history and they reflect the history of this country in a 
manner that is very, very unusual and important. Thank you very 
much.
    Mr. Horn. Well, thank you very much.
    We have a few questions for this panel before we move to 
the third panel, and I take it by my previous question to you, 
Dr. Swygert, that Howard University would be interested in 
participating in----
    Mr. Swygert. Yes, Mr. Chairman. Mr. Chairman, if I may, in 
terms of capacity to participate in a pilot program, we have 
invested a significant amount of resources in the past several 
years to build up our IT, or information technology 
infrastructure, both in terms of hardware, software, wiring the 
campus, and in terms of recruitment and retention of both 
faculty and staff who can manage the technology.
    We think we are suited for this purpose for three relevant 
reasons. The first is that when you look at Howard University, 
as I said in my opening remarks, Mr. Chairman, you are 
literally viewing the progeny of the Freedmen's Bureau itself. 
We think, to the extent that there should be some consideration 
given in terms of the historical relationship, that pertains.
    Second, we have many, many decades of management of very, 
very sensitive, fragile, irreplaceable documents in the form of 
the Mooreland-Spingarn collection that Dr. Battle heads at the 
university, and we take that charge very seriously.
    Finally, Mr. Chairman, we are a research university. Howard 
University, under the old Carnegie classification system, was 
known as a research 1 university. In the new Carnegie 
classification system, we are known as a doctoral intensive 
university, which is the highest ranking for these purposes 
that a university might obtain. We have the doctoral programs, 
we have the faculty, the students, and the physical facilities, 
and now we have the technology to participate.
    Mr. Chairman, if I may, I would urge if at all possible, 
that you find some way and some opportunity to further 
encourage us to pursue this pilot program idea initiative. We 
very much appreciate that.
    Mr. Horn. Well, I think, as you heard me ask the author of 
the legislation, you have got choices here of the archives 
itself, the archives pilot projects, and here we have the 
example of the University of Florida, which had a grant to 
preserve and index a few of the Freedmen's Bureau records, but 
it isn't a very total approach. Then of course, the money that 
goes to, and we have expanded that hopefully with the 
Appropriation Committees, is the National Historical Public 
Records Commission, which has worked on this type of pilot 
throughout the United States in the preservation of records.
    I am just fishing for what is out there and what are the 
possibilities when you write legislation so that we don't 
exclude or overly include. That is what I am looking at.
    I might ask you, Dr. Battle, what type of records are in 
the Spingarn collection?
    Mr. Battle. Mr. Chairman, I appreciate the opportunity to 
share this with you. We were founded in 1914. We celebrate more 
than 85 years of service in documenting Black history and 
culture. We consider ourselves the largest and most 
comprehensive repository of this kind in the world. We are 
generally considered the library of last resort. Roughly that 
means when you can't find it at the Library of Congress, you 
come to us. We are one of the largest manuscript archivals of 
this kind.
    We tend not to enumerate the quantities in the collection, 
but our library collections are well over 200,000 volumes, 
there are well over 100,000 images in our photographic 
collections, our manuscript and archival collections would 
extend some 30 miles or so if we were to try to articulate 
materials in that way. We are one of the most comprehensive 
centers of documenting all aspects of the Black experience in 
this Nation. We sometimes say that we predate Black History 
Month and the organization that founded it. Howard University 
has collected such historical information since the first days 
of its existence. Our library collection is based upon the 
Louis Tachnach slavery collection, which documents the 
experiences of African people during that turbulent period in 
our history.
    We, in addition to the range of resources that we have, you 
may also be interested in knowing that for the last year, in 
our second year of publication of what we call HUarchives.net, 
this is undertaken to provide us with the opportunity to share 
in a broader fashion the vast resources of Mooreland-Spingarn 
Research Center. We have done so while trying to address the 
needs not simply of university level and scholars, but students 
and teachers in the K-through-12 range as well. We think that 
we are very qualified in the field that we endeavor in terms of 
preservation of Black history.
    Mr. Swygert. HUarchives.net is a pilot, Mr. Chairman, if 
you will, that is funded in part by MCI WorldCom, and it is a 
reflection of that partnership between private sector and a 
research university to accomplish a public good, and we are 
very proud of that relationship and the work that has been done 
over the past year or so.
    Second, Mr. Chairman, I would respectfully request an 
opportunity to supplement my written testimony with a written 
response to your inquiry regarding ways and means of 
effectuating the purposes of the legislation.
    Mr. Horn. Without objection, that will be put at this point 
in the hearing record.
    Mr. Swygert. Thank you, sir.
    Mr. Horn. You are quite welcome. Remind me who Spingarn 
was?
    Mr. Battle. He was an attorney, a bibliophile. It was his 
life's passion, and he set out in a worldwide search to find 
and to collect every volume written by a person of African 
descent. To the extent that he was successful, his collection 
is one of the major collections of such rarities that is in 
existence. Jesse Mooreland was a graduate and alumnus of Howard 
whose collection was donated in 1914 with the intention that 
Howard University would be the foundation of the study of Black 
life, and history, and culture in the United States, throughout 
the Americas and throughout the African diaspore, including 
Africa itself.
    Mr. Swygert. Mr. Chairman, just as another point regarding 
the Mooreland-Spingarn collection, a significant amount of the 
research that preceded the Steven Spielberg ``Amistad'' story 
took place at the Mooreland-Spingarn collection. So, when Dr. 
Battle speaks of documentation and records, he speaks with real 
authority among his peers and scholars. It is a great, great 
respository that is part of the definition of Howard 
University.
    I am often asked, Mr. Chairman, how do you define the 
university? Well, you begin in two places. Your faculty and 
your library. We have a great faculty and a great library and a 
great collection at Mooreland-Spingarn.
    Mr. Horn. What is that Website address?
    Mr. Swygert. It is www.howarduniversity.edu for the 
university.
    Mr. Battle. And Mooreland-Spingarn would simply precede 
Howard University.
    Mr. Horn. I want to make sure.
    Mr. Battle. It is HUarchives.net, that is one word, 
although separation in spacing, dot Howard.edu.
    Mr. Horn. Do you have any questions?
    Ms. Millender-McDonald. Mr. Chairman, I simply want to 
thank the president of Howard University and these other two 
fine professors and persons who have come from that very 
distinguished university to really give us a further insight as 
to what the depth of Howard University's research department 
is.
    Mr. Horn. It is. It seems too natural that you would have a 
pilot program of the Freedmen's Bureau records. You certainly 
are located here in Washington, DC. Folks come to your 
university to get that kind of research, and to have this type 
of historical perspective and material is just natural. I would 
like to pitch for a pilot program to be there.
    I agree with you, Doctor, that your historical background, 
given that General Howard himself, who the university is named 
after, and the whole notion of Dr. Battle and his research 
program, Dr. Lewis, I guess I feel so overwhelmed this morning 
to know that we have such great experts out there who are 
willing to help us further this whole project of getting this 
information out to our younger kids, and I call them kids 
because I am so much older, but the folks in colleges and 
universities across this Nation. I would simply say thank you 
for your input. I have noted those things of importance that 
you have said today.
    Dr. Swygert, I want to ask, on your campus do you have 
genealogy research groups or student groups that would be 
interested in a such a pilot program?
    Mr. Swygert. Oh, yes. Many, both State-related groups at 
Howard University. We have a history of students, undergraduate 
and graduate who identify by State, so there is a Georgia 
society on campus, there is a Texas society on campus, a 
Florida society and our largest--California is our largest. We 
also, of course, have faculty and staff who, in addition to Dr. 
Battle, both the department of history and elsewhere have 
demonstrated expertise, and I think would welcome this with 
enthusiasm. At Howard University it is personal. This is a 
definition of the very institution that I am privileged to 
represent. So, to say that there would be enthusiasm on our 
campus would be a gross understatement. There would be a 
tremendous celebration.
    Ms. Millender-McDonald. I can certainly attest to that. Dr. 
Swygert, if you would help me to get this word across to other 
presidents and to carry this throughout the Nation, that indeed 
we have something that is important to America and to African 
Americans. Thank you, Mr. Chairman.
    Mr. Horn. Thank you. We thank you for all of the work that 
you have put into this. Did any of you have a chance to look 
through the actual draft, H.R. 5157, and do you have any 
suggestions to make to that because we are going to move this 
very rapidly?
    Mr. Swygert. We have no suggestions this morning, but we 
will be working up some comments, Mr. Chairman, in addition to 
the supplement that I mentioned a moment ago. But the outline 
of the legislation is right on target and well drafted and very 
well focused.
    Mr. Horn. Could you draft it by the end of the day?
    Mr. Swygert. We will have something for you----
    Mr. Horn. On the bill?
    Mr. Swygert. Absolutely.
    Mr. Horn. We will move this tomorrow morning and hopefully 
the full committee and move it to the floor.
    Mr. Swygert. Thank you, Mr. Chairman.
    Mr. Horn. The only other one that I have moved this fast 
was when I was trying to save the National Academy of Sciences.
    Mr. Swygert. Thank you. I feel privileged to have the 
opportunity to speak before you today.
    Mr. Horn. Thank you very much. We now will go to the third 
panel. The third panel is Reginald Washington, African American 
genealogy subject area specialist, National Archives and 
Records Administration, Mr. Michael Kurtz, Assistant Archivist 
of the United States for Records Services, National Archives 
and Records Administration; Professor Tony Burroughs, adjunct 
professor of genealogy Chicago State University, and Henry 
Wiencek, resident fellow, Virginia foundation for the 
humanities. If you will stand to be sworn.
    [Witnesses sworn.]
    Mr. Horn. We will start with Reginald Washington.

 STATEMENTS OF REGINALD WASHINGTON, AFRICAN AMERICAN GENEALOGY 
    SUBJECT AREA SPECIALIST, NATIONAL ARCHIVES AND RECORDS 
   ADMINISTRATION; MICHAEL KURTZ, ASSISTANT ARCHIVIST OF THE 
   UNITED STATES FOR RECORDS SERVICES, NATIONAL ARCHIVES AND 
   RECORDS ADMINISTRATION; PROFESSOR TONY BURROUGHS, ADJUNCT 
  PROFESSOR OF GENEALOGY, CHICAGO STATE UNIVERSITY; AND HENRY 
     WIENCEK, RESIDENT FELLOW, VIRGINIA FOUNDATION FOR THE 
                           HUMANITIES

    Mr. Washington. I would like to begin, Mr. Chairman, by 
thanking you for inviting me this morning to testify on the 
need to preserve and increase the accessibility of the records 
of Bureau of Refugees, Freedmen, and Abandoned Lands. As the 
subject area expert in African American genealogy for the 
Office of Records Services, Washington, DC, I fully recognize 
the importance of the Bureau's records, and I appreciate the 
committee's interest in them. I am delighted to have the 
opportunity to participate in the hearings today.
    The records of the Bureau of Refugees, Freedmen, and 
Abandoned Lands, commonly known as the Freedmen's Bureau, are 
among the most important primary resources for the study of the 
African American experience during slavery and freedom. The 
Freedmen's Bureau records document the African American 
community's struggle for freedom and equality, and provide 
insight into the Federal Government's policies toward the 
nearly 4 million Blacks released from bondage at the close of 
the American Civil War.
    While a major part of the Bureau's early activities include 
the supervision of abandoned and confiscated property, its 
mission was to provide relief and to help freedmen to become 
self sufficient. To accomplish these goals, the Bureau issued 
rations and clothing, operated hospitals and refugee camps and 
supervised labor contracts between planters and freedmen. The 
Bureau also managed apprenticeship disputes and complaints, 
assisted benevolent societies, and established schools, helped 
legalize marriages, and provided transportation to refugees and 
freedmen who were attempting to reunite with family or relocate 
to other parts of the country. As Congress extended the life of 
the Bureau, it added other duties, such as assisting Black 
soldiers and their heirs in obtaining back pay, bounty 
payments, and pensions. In carrying out all of these 
activities, the Bureau collected information about freedmen and 
their families. I've brought along copies of several examples 
of Bureau documents that illustrate the types of information 
collected.
    Mr. Horn. We would certainly like you to file them with the 
record. Go ahead and make a summary and put the rounder part of 
it in the record at this point.
    Mr. Washington. The documents that I brought today, one is 
certainly a marriage certificate. I brought along a labor 
contract agreement and also a marriage register and one other 
document I brought today was a plantation census.
    Mr. Chairman, for decades, historians, social scientists, 
and other scholars have used Freedmen's Bureau records to study 
social and economic conditions and the Federal Government's 
involvement in education in the Black community during 
reconstruction. In recent years, however, a growing number of 
African American genealogists and family historians have 
discovered the value of Freedmen's Bureau records for family 
research and have begun wading through them in search of 
information about ancestors and local history. Some collected 
records of the Bureau have been microfilmed, but, in general 
these do not include many records of the local field offices 
where most individual freedmen came in contact with the Bureau. 
Many researchers who attempt to use the field office records 
become frustrated when they discover that they must travel to 
Washington to use them. Their frustration continues when they 
find that the records are voluminous and lack useful name 
indexes.
    Fortunately, we have been successful in forming some 
partnerships that are enabling us to address the frustrations 
of users of the Freedmen's Bureau field office records. One of 
these partnerships involves the special collections library of 
the University of Florida; and we are using it as a pilot to 
confirm requirements for processing records prior to filming 
and to examine the feasibility of producing an automated name 
index. The project involves the filming of some 41 series of 
records of the Florida field office of the Freedmen's Bureau, 
totaling more than 12,000 images.
    To test the indexing possibilities, NARA has developed a 
data base to collect index entries and is training members of 
its volunteer Civil War Conservation Corps to populate the data 
base by extracting names from the Florida series that are most 
likely to yield information about individual freedom. The 
University of Florida is funding the filming and NARA 
volunteers are doing the indexing, but any number of other 
divisions of labor are possible, and NARA also envisions 
partnerships where funds for filming originate with the 
government and private partners contribute indexing support.
    This concludes my prepared statement, Mr. Chairman. If you 
or other members of the subcommittee have any questions, I 
would be happy to address them.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Washington follows:]
    [GRAPHIC] [TIFF OMITTED] T5060.009
    
    [GRAPHIC] [TIFF OMITTED] T5060.010
    
    Mr. Horn. Our next witness is Michael J. Kurtz.
    Mr. Kurtz. Thank you, Mr. Chairman, it is good to be back 
with this committee.
    Among other things, one of my most important jobs is that I 
am responsible for the custody and use of the Freedmen's Bureau 
records that my colleague Mr. Washington has just described. 
When I was a young archivist, one of my first projects was 
working with Freedmen's Bureau records, so this brings me back 
around to the beginning.
    On behalf of the National Archives, I want to thank 
Congresswoman Millender-McDonald, and Congressman Watts for 
introducing the Freedmen's Bureau Preservation Act of 2000. It 
is very consistent with the mission and goals of the National 
Archives, and we support the bill very enthusiastically. We 
always welcome any congressional interest to preserve and make 
available archival records, particularly these valuable records 
which Mr. Washington, President Swygert and others have 
described so well today.
    We have the records in a stable environment, but with 
increasing use, their fragile condition really requires the 
steps that are called for in this bill. We have prepared--in 
preparation for this effort, we have identified approximately 
1.3 million pages of material that need to be microfilmed. It 
would cost approximately $1.5 million. All of this of course is 
beyond the current budget and resource----
    Mr. Horn. I want to be very clear. Are those records that 
you already have or is that an estimate of the records out 
there in the field?
    Mr. Kurtz. These are all Freedmen's Bureau records which 
have been described at the State and county levels which have 
the most important genealogical name information. It covers all 
of that for all 11 states.
    Mr. Horn. And you say basically that boils down to 1\1/2\ 
million items?
    Mr. Kurtz. 1.3 million pages, $1.5 million.
    Mr. Horn. OK.
    Mr. Kurtz. We prepared all of this earlier this summer when 
we were working with Congresswoman Millender-McDonald in 
preparation for this effort.
    A couple of points raised by Dr. Swygert, which I think are 
very important. The finding aids, we are in the process of 
putting them up on the NARA Web, and that should be completed 
soon.
    Mr. Horn. What do you mean by ``narrow Web''?
    Mr. Kurtz. Our Web site. It is the NARA, the National 
Archives Website.
    Also we are very pleased to hear from Dr. Swygert of the 
interest of Howard University in performing as a potential 
partner. We think that for the indexing part of this process, 
it is critical to have partners. As you noted, Mr. Chairman, 
the NHPRC does do grants. There was a grant made to the Florida 
State Historical Society which regranted to the University of 
Florida for the project that we are now engaged in with them 
for this pilot project. That certainly is one possible way to 
go.
    The pilot project is critical because we really need to 
understand what standards we need to have, what kind of time 
and resource constraints. So, forming these pilot projects with 
the various universities, particularly Howard University, would 
be a very important way to go. I would also like to note in 
closing that we will be working very closely with your staff 
today on some changes in the bill with regards to funding, I 
think clarifying the authorization for funding and also putting 
in--suggesting language to make it clear about the partnerships 
and the various ways to go about doing that for the indexing 
and getting the information on the Internet.
    Mr. Horn. Let me pursue that point. We have the National 
Historical Publications and Records Commission. Do you think 
this project here and the $1.5 million in terms of how we would 
take those partnership suggestions around the country, would 
that be by a new unit in the archives or would it be left to 
the National Historical Publications and Records Commission?
    Mr. Kurtz. The $1.5 million is required for the 
microfilming. That is the first step that has to happen. It is 
the purpose of the pilot project with Florida to come up with 
what the standards and the costs would be to do name indexing, 
and from gathering that data, it would enable us to begin 
working with various university partners in this effort. So, at 
this point, I don't have a dollar estimate.
    Mr. Horn. When will Florida complete the pilot so we can 
have these figures in a fiscal sense?
    Mr. Kurtz. I need to check on that for you. We are ready to 
begin filming it, and we have developed the data base that we 
need for the indexing pilot. I need to get the information when 
that part will be completed.
    Mr. Horn. When did that pilot start?
    Mr. Kurtz. Our Civil War Conservation Corps that Regie 
Washington mentioned has completed all of the preparation for 
the microfilming, so the microfilming is about to begin any day 
now. That should take about 60 days or so to do the 
microfilming. We have to get some information for you on 
exactly when the indexing part of this will be completed, and 
we will do so.
    Mr. Horn. I want to put in the record at this point some of 
the typical documents that our staff and staff director have 
from these records. One here is rules on the actual slave at 
the time and another one is the Amnesty Oath, it would be 
Mississippi residence, but you can see that in the records. And 
then from the Bureau of Refugees, Freedmen and Abandoned Lands, 
the marriage certificate, and then it tells man and wife and 
the name children are a legitimate issue of. And then we have a 
list of the burials for the month of September 1865.
    This reminded me, when I started looking at those 
documents, of the wonderful project that came out of your 
legislative section of the Archives on Thomas Jefferson where 
the documents look exactly like it was in Jefferson's day, and 
also women's suffrage. Now, those are the only two I know of 
like that. Are there others?
    Mr. Kurtz. They are working on one on a history of Congress 
project. That is our third major one.
    Mr. Horn. Good. But it is really wonderful when children in 
school--elementary, intermediate, high school, universities, 
colleges, whatever--when you see these documents, the history 
comes home to you.
    Mr. Kurtz. I will be sure to pass that on to the Archivist, 
Mr. Chairman.
    Mr. Horn. So these will be put in the record. They can do 
that at the Government Printing Office. We have a little 
trouble of what you can do down there or what you can't, so I 
think those can be easily duplicated in our hearing.
    Mr. Kurtz. Just one other point, to pick up on what was 
previously said. As these records are microfilmed and so forth, 
we intend to put them in our regional archives. We intend to, I 
think, followup your idea about the depository library. Also, 
we have a microfilm rental program. All of this would be in 
addition to eventually what gets indexed and put on the 
Internet, other sources of access.
    I would like to close, Mr. Chairman, by saying that I 
believe this will be the final time that, due to the chairman's 
term limits provisions, that we will have the opportunity to 
testify before you. We want to thank you for your great help 
and leadership with the National Archives.
    Mr. Horn. Well, thank you very much. We have enjoyed 
working with you.
    [The prepared statement of Mr. Kurtz follows:]
    [GRAPHIC] [TIFF OMITTED] T5060.011
    
    [GRAPHIC] [TIFF OMITTED] T5060.012
    
    Mr. Horn. Our next presenter is Professor Tony Burroughs, 
adjunct professor of genealogy, Chicago State University.
    Mr. Burroughs. Mr. Chairman, Congresswoman McDonald and 
members of the committee, thank you very, very much for the 
invitation to say a few words in support of H.R. 5157, the 
Freedmen's Bureau Record Preservation Act of 2000. I am very 
honored to be here today.
    According to surveys conducted this year by Maritz 
Marketing, 60 percent of all Americans over the age of 18 are 
interested in doing genealogical research. Other surveys 
indicate that genealogy is one of the most popular interests 
and activities on the Internet. These surveys are consistent 
with numbers reported by the National Archives indicating that 
85 percent of all users of the Archives are researching their 
family history. Being the only invited full-time, professional 
genealogist on this witness panel today, I represent those 85 
percent of researchers using the National Archives as well as 
60 percent of all Americans.
    Specifically for African Americans, I have just published 
this book, Black Roots, a Beginners Guide to Tracing the 
African American Family Tree, which will be Simon & Schusters' 
lead book in Black History Month, to prepare beginners to get 
more fundamental background in doing their family history.
    I have delivered dozens of lectures at national conferences 
and local workshops around the United States and Canada in the 
last 10 years that either instruct researchers on how to use 
Freedmen's Bureau records or lectures that include Freedmen's 
Bureau records among other records that I discuss.
    Seeing the excitement on genealogists' faces once they 
learn of these rare records and then their almost immediate 
frustration when they learn that most have not been microfilmed 
and they have to travel to Washington to view them is like 
watching the old commercials on the Wide World of Sports 
describing ``the thrill of victory and the agony of defeat,'' 
all in a matter of seconds.
    Because of the age, the quality and the quantity of these 
records, they are extremely valuable to both African American 
and also White genealogists. I have devoted 25 percent of 
instructional text in this book, the African American 
Genealogical Sourcebook, to researching records from the 
Freedmen's Bureau so people know what to do before they come to 
Washington.
    I explain 14 different record series with genealogical and 
historical value, many of which have already been mentioned, 
but including apprenticeship records; census lists and 
registers; marriage records, among the most valuable because 
they often contain the only record of a slave marriage and 
sometimes includes the names of children; labor contracts; 
transportation records; education records, which chronicle the 
beginning of Black colleges; supervision of 850,000 acres of 
abandoned land, including leases, sales, and restorations; food 
rations; and hospital records, which are extremely valuable 
because they often contain the only record of an ancestor's 
death--I have seen hundreds of deaths in hospital records due 
to contagious diseases, epidemics and poor sanitary conditions; 
complaints, outrages and murders; and the Freedmen's Bureau 
supervised trials. There was a tremendous amount of 
correspondence; there are Civil War Veteran Claims; and a few 
miscellaneous records, including births, deaths, and cemetery 
records.
    Almost all of these records contain names of both African 
Americans as well as White Americans, many being Bureau agents, 
teachers, doctors, chaplains, ministers, government employees, 
laborers, former slave owners, refugees from the Civil War, the 
sick and the indigent, landowners and Civil War veterans. In 
addition to the 15 States covered by the Bureau's services, 
some left home from other States to work for the Bureau, or 
attend one of the schools. Others received Bureau assistance to 
return to home and to work outside of Bureau-controlled States, 
so it covers more than the 15 areas that the Bureau controlled.
    The most challenging problem facing African American 
genealogists is identifying the name of the former slave owner, 
vital to extend genealogical research prior to 1865. My own 
unpublished research shows that, out of over 5,000 cases, only 
15 percent of former slaves used the name of the last slave 
owner. Therefore, I instruct researchers to search for records 
where the former slave indicates the name of his or her former 
slave owner. Some of the best sources are records from the 
Freedmen's Bureau that were created during this transition from 
slavery to freedom.
    In addition to discovering their ancestors, some 
genealogists have made larger contributions to society. Belzora 
Cheatham, president of the African American Genealogical and 
Historical Society of Chicago, located letters written to the 
Freedmen's Bureau in 1868 which assisted her in getting the 
first State historical marker dedicated to African Americans in 
Cass County, TX. The unveiling of her historical marker for 
Whittaker Memorial Cemetery was featured on the CBS Evening 
News with Dan Rather's Eye on America in 1996.
    Some of the Bureau records are now 135 years old and in 
poor condition. In addition to deteriorating paper, ink is 
fading from some of the pages and will undoubtedly be a 
challenge to microfilm.
    Of the few records of the Freedmen's Bureau that have been 
microfilmed, 75 percent were microfilmed prior to the 1977 
airing of the television miniseries ``Roots'' by Alex Haley, 
which resulted in an explosion of Americans researching their 
family history. Records from the Bureau that were microfilmed 
pertained mainly to reports, correspondence, and education 
items related to the history of the Bureau and to education of 
African Americans, not to genealogy.
    Professor Ira Berlin and his Freedom and Southern Society 
Project at the University of Maryland was able to select 40,000 
documents from the National Archives to transcribe and publish, 
including some from the Freedmen's Bureau. But he was able to 
do this because he was only a Metro ride away from the 
documents. What about those thousands of us that live hundreds 
and thousands of miles away from Washington, DC? If these 
records are microfilmed, thousands of genealogists will not 
only have access to the materials, they can also begin to 
transcribe records that hold missing puzzles to their 
ancestors' lives, while other genealogists can begin new 
studies that will contribute to the humanities.
    I have been at the National Archives on many occasions when 
researchers located their ancestors. The joy and exultation 
they exhibit is sometimes overwhelming. It is very exciting for 
me to share in their excitement. It is what keeps me teaching 
over the years.
    Records from the Freedmen's Bureau are unique because they 
are not only used by academic scholars, they are used by 
average Americans searching for their roots. The records 
include African Americans, White Americans, poor Americans, 
rich Americans--in fact, all Americans. Descendants of people 
named in the records probably live now in all 50 States.
    It was the Congress of the United States that created the 
Bureau of Refugees, Freedmen and Abandoned Lands in 1865. Now, 
135 years later, we are once again relying on you, the Congress 
of the United States, to preserve the Bureau's records and its 
legacy.
    I would like to close with two points, one, that I have 
been working with archivists from the United States in Chicago, 
Washington, Philadelphia, and Kansas City, and I must say that 
they do an excellent job, and they are some of the finest civil 
servants that I have seen. However, they are underutilized, 
they need more resources to do the job they are doing.
    I would also like to say that I have worked with the effort 
to index the U.S. Colored Troops Project that is now on the 
Internet that was championed by the National Park Service as 
well as the Federation of Genealogical Societies where we 
garnered thousands of genealogists around the country to index 
these records and make them available to the Internet, and I am 
willing to offer that service again if it is needed by the 
committee. Thank you.
    Mr. Horn. Thank you. That is very fascinating testimony; 
and we appreciate you.
    [The prepared statement of Mr. Burroughs follows:]
    [GRAPHIC] [TIFF OMITTED] T5060.013
    
    [GRAPHIC] [TIFF OMITTED] T5060.014
    
    [GRAPHIC] [TIFF OMITTED] T5060.015
    
    [GRAPHIC] [TIFF OMITTED] T5060.016
    
    [GRAPHIC] [TIFF OMITTED] T5060.017
    
    Mr. Horn. Let me ask you, you have heard some of the 
choices of the pilot projects, the Florida project, do it with 
the Archives, etc. Do you have any advice for us on that of how 
this, given the immensity of records in parts of the Nation and 
how we get microfilm equipment--I have just finished going 
through about 40 years of a newspaper, and one's eyes do get 
tired after a while. Then the problem is, when you have 
delicate, fragile records, that they make sure that they get a 
good picture of it somehow; and usually the thing is going like 
this for some archival documents, even after they are on 
microfilm. They just didn't focus it. They were just rushing 
through. So what can you tell us about that?
    Mr. Burroughs. I agree with all of the things that have 
been previously mentioned. I think that, historically, Black 
colleges are an excellent source to try to utilize some of 
this. I would not leave out the Historical Records Preservation 
Committee and the efforts that they have done. I think they 
have done a fine job with a lot of the documentary history 
projects they have done, particularly the one by the Freedom 
and Southern Society Project, so I would not overlook that in 
terms of actually transcribing some of the records, in addition 
to making name indexes. So I don't know if there is time to 
look into that, but there is a precedent that is set by that, 
so I would not overlook that. Again, there are thousands and 
thousands of genealogists around the country that would be very 
willing to help in this effort.
    Mr. Horn. Well, thank you. Do you have a question for this 
witness, and then we will go to----
    Ms. Millender-McDonald. Mr. Burroughs, you certainly have 
given some very interesting and informative information and 
testimony on your background and how intense you have been in 
trying to preserve and to recover I suppose more information. 
It is interesting to know that 60 percent of Americans over the 
age of 18 are interested in genealogy. It is just amazing. You 
tend to think you might be one of those who are in just a 
little hole alone, as I thought I was, just really being 
interested in this, but it is great to know this as well. I 
would be interested to know how many of those 60 percent are 
African Americans, if that is a breakdown that we can get.
    Mr. Burroughs. I was afraid that question was going to come 
up. I have not seen statistics on that, and the Maritz 
Marketing that compiled those statistics, I don't know if they 
have racial breakdowns of those. I do know that I have seen a 
growing interest in the numbers of African Americans doing 
genealogy. I have been tracking, on an informal basis of the 
numbers of African American genealogical societies that have 
been growing around the country, and now there are more than 50 
genealogical societies spread out throughout the United States, 
and those numbers are growing.
    The 60 percent of all Americans, that number is up from 5 
years ago when it was 45 percent of all Americans. So I have 
talked with representatives from the National Archives, and 
they do not compile statistics by race either, but they have 
indicated to me that the numbers of African Americans are 
growing just like everybody else is growing.
    Ms. Millender-McDonald. That is interesting, given the fact 
that we see more and more in our communities at family reunions 
and, in doing so, the family tends to want to now know from 
whence they have come and whether or not Alabama is really the 
first, I guess, point of origin of the family or wherever--
outside of, of course, Africa. But they want to know whether 
they have come from the southern part of Africa, the west part 
or whatever, and it is important that we continue to move the 
Bureau of Records whereby one can begin to do that.
    I did that when I had to speak in front of my family 
reunions, and I went through the Mormon's records to find that 
and found that we really--the name Millender, the name 
McDonald, and we recognize those names and where they have come 
from, but you just really tend to go as far back. And it went 
back to Africa and then down to Portugal. So, it is amazing how 
I came all the way up through all of that area in trying to 
find, really, my roots. So it was quite interesting.
    The other thing I wanted to ask you was----
    Mr. Burroughs. Excuse me, if I could interrupt you for a 
brief second to followup on the point that you are making, this 
book, the African American Genealogical Sourcebook that was 
published by Gale Research, was the first major publication in 
15 years when it came out in 1995. After it has come out, 
within the last 5 years, several commercial publishers have 
come out with books on African American genealogy. So, if the 
commercial publishers are interested and they are publishing 
books, then obviously there is a tremendous demand and interest 
there.
    Ms. Millender-McDonald. Well taken and well said. I would 
like to get those books that you have displayed today.
    Mr. Burroughs. Sure.
    Ms. Millender-McDonald. Did I write it correctly, the 
National Archives Preservation Committee? What is the----
    Mr. Burroughs. What is the correct name of the historic 
preservation committee?
    Mr. Horn. It is the National Historical Publications and 
Records Commission.
    Ms. Millender-McDonald. So that is one that comes through 
our National Archives and not one that is independent of them; 
am I correct? Is this an interest----
    Mr. Horn. It is in cooperation with the Archives?
    Mr. Kurtz. The Archivist is the chair of the Commission, 
and it is administratively organized and managed by the 
National Archives.
    Ms. Millender-McDonald. OK, fine. I just wanted to get a 
clear understanding of where they integrate.
    Thank you so much, Mr. Chairman.
    Mr. Horn. That leads to another question. Besides the 
Freedmen's records, what are some of the other records that 
might also be relevant to the emancipation of the slaves? Are 
they in county courthouses somewhere buried beyond the 
Freedmen's material that we obviously want? What is out there 
besides that? If you take a microfilm machine around to a 
county courthouse, maybe there are also some other records you 
want.
    Mr. Washington. Well, Mr. Chairman, in terms of Federal 
records, there is also the Freedmen's Bank records that are 
available at the National Archives. Freedmen's Bank was 
established on the same day that the Bureau was established, 
although it was established as a private institution. When the 
bank failed, of course the Federal Government stepped in, the 
Comptroller of the Currency and so forth, to liquidate the 
assets and so forth. But the Freedmen's Bank records are also a 
body of records that are useful for African American family 
research.
    One of the efforts of the officials of the bank was to 
determine when a person opened up an account, who their family 
members were. So, you find information about aunts, uncles, 
fathers, brothers, sisters, and all of that information is in 
there.
    Again, I should point out that institution was established 
in 1865, so a lot of the information you find in those bank 
records are prior to the 1870 census, where all African 
Americans are initially being documented by name and so forth.
    So, they become extremely important records, and they work 
closely with the Freedmen's Bureau, and many of the people who 
are depositing money there thought they were a part of the 
Freedmen's Bureau, but they are a separate body of records.
    Also, I have been working a good deal on some records 
called the Commission of Claims, also known as the Southern 
Claims Commission. This is a commission that was established in 
1871 where persons who had property taken from them by the 
Union soldiers who, when they moved throughout the areas, had 
an opportunity to seek compensation from this commission, from 
the Federal Government. And some of these individuals who were 
filing for claims were, believe it or not, former slaves and 
freed Blacks. Not only that, those records, there were some 
220,000 witnesses.
    In many cases, when you find persons serving as witnesses 
for Blacks who are filing claims, these witnesses are family 
members. Also, when you find many of the Whites who made up the 
majority of the people filing claims, many of the witnesses 
were their former slaves. And when you ultimately go through 
those documents, you are finding what these people are saying, 
this person was my former slave owner. And as Tony pointed out, 
one of the key efforts in doing African American genealogy is 
to find out, if your ancestors were former slaves, who the 
slave owner was. You need to find as much information about the 
slave-owning family as you do your own family. So these kinds 
of records, Federal records, provide that kind of information.
    On the level of the local level, obviously, at some point, 
people are going to have to do research. African Americans are 
going to have to do research at these local levels, look at 
wills and probate records, deed books where information was 
created by the slave-owning families. And you can find this 
information sometimes, where they purchased these individuals, 
you might find information where slaves have been bequeathed to 
family members and all sorts of documents. You might find 
assessment lists in a probate record where they not only list 
the furniture and the other items that are owned by these 
individuals but you also find the names of the slaves they 
owned and certainly the cost and other information about them.
    So, certainly African American genealogical research 
involves using Federal records and also these local records 
that are created in the States and the county courthouses.
    Mr. Horn. Well said.
    Dr. Kurtz, I am curious, besides microfilm, do we now have 
scanning devices that could get some of these records into a 
computer base?
    Mr. Kurtz. Yes, we do, Mr. Chairman. Always we microfilm 
because that is the long-term preservation medium, but we have 
been working again with building partnerships with various 
parts of the private sector to get records scanned and made 
available through digital imagery.
    Mr. Horn. On the scanning from the microfilm then, can you 
move it onto a disk that preserves it?
    Mr. Kurtz. Yes, you can.
    Mr. Horn. How long does the standard microfilm tape last?
    Mr. Kurtz. Well, actually, the preservation medium is the 
microfilm. There are really no archival preservation standards 
at this point for digital imagery. They are still being 
developed with the technology and the industry. So whenever we 
use digital imagery and so forth in scanning and images, it is 
purely for the purposes of access and accessibility. It is 
really not for preservation. I am sure in the next couple of 
years this will be settled and the standards will be developed, 
but they don't exist right now.
    Mr. Horn. Well, when we talk about 1.3 million pages and a 
cost of $1.5 million for the microfilm, do we need to also 
think about disks that would keep it permanent when the rest of 
this is either in a vault somewhere in a cave in some States 
and universities. How much really are we talking about, $3 
million basically?
    Mr. Kurtz. I am really not able to comment on that.
    Mr. Horn. I would think so. Well, we will start with that. 
We will see if we can get away with $3 million.
    Mr. Kurtz. One of the things, too, I would like to 
supplement a little bit about, what Regie Washington shared in 
the National Archives here in Washington there are many 
records, military records that have information about African 
Americans, Treasury Department records. For instance, I think 
it is the third auditor of the Treasury Department, you find 
all of the records related to compensated emancipation here in 
the District. I used those records many years ago in a 
publication, and they are a rich source of information.
    Ms. Millender-McDonald. Mr. Chairman, let me just ask Mr. 
Washington, your comments on the Freedmen's Bank records, the 
Commission of Claims records and now Dr. Kurtz saying the 
military Treasury records, that would be quite an integration 
of records, and it would seem to me like at one time, at one 
point, we need to look at integrating that and cross-
referencing that. Because if you have just one segment of these 
remarkable records as in the Freedmen Bureau, we certainly need 
to finish that off with all of the other records that will be a 
cross-reference to and for cross-purposes, it seems to me. I 
would like to perhaps have you and Mr. Washington and Mr. Kurtz 
to look at the cost factor of that. Because that, to me, seems 
to be the next step, not at this juncture, Mr. Chairman, but 
perhaps at another one, that we can start looking at an 
integration of all of those records.
    Mr. Kurtz. Congresswoman, I think that you are making a 
very good point, because I think what we really need to do is, 
beginning with what we are planning to do at this point, 
develop a strategy that kind of moves onward and outward 
dealing with what is most productive and useful, identifying 
what is lesser, making those cost-benefit decisions and whether 
it is worth it and have a strategy that goes beyond the 
Freedmen's Bureau, that has to be our first step, I think.
    Mr. Horn. I would like to now move to our last presenter. 
His responses will be along the line of a lot of the questions 
we have already asked, but I wanted to get some of the 
administrative questions into the record, and then what Mr. 
Henry Wiencek has done is really quite exciting. He is a 
resident fellow in the Virginia Foundation for the Humanities.
    We are glad to have you here. Please give us the answers to 
some of the ones we have already had answers on, because you 
have lived through this, so tell us about it.
    Mr. Wiencek. Mr. Chairman, thank you very much for inviting 
me here today to testify on something that is really extremely 
important. I can testify firsthand as to both the importance of 
what you are proposing and also to the insane difficulty that 
descends upon any researcher who tries to use these records. 
So, anything we can do to ameliorate that will be most welcome.
    I would like to address, first of all, a larger question, 
which is the importance of genealogy. I think that some people 
have the perspective that it is something almost purely private 
and almost an avocation. But, as a professional writer and 
historian, I think I can tell you that we are on the edge of a 
new era in history where we will make much more extensive use 
of genealogies than we have in the past.
    I am beginning to see how all of these individual strands 
that families have been laboriously constructing over the last 
couple of decades can be put together to form tapestries that 
show us the trajectory of a community, the trajectory of the 
rise of a race, and we are just now reaching the point where we 
will have the critical mass of individual family research where 
we can begin to put it together.
    I have been asked to consult with Colonial Williamsburg on 
a project called Forever Here; where they are trying to get a 
better view of what slavery was like in Williamsburg. And to 
whom are they turning? They are looking to genealogists, to 
family historians among the families of the people who were 
enslaved there. They are actively seeking out slave descendants 
to find out: ``What have you found out about your family? What 
can you share with us in terms of oral history, in terms of 
documentation, in terms of family trees? What happened to these 
people after they became free? We need to know that.''
    In my next project, I am doing a book on George Washington. 
Some of the first people I consulted with were African American 
genealogists. I got in touch with people, and some of them came 
to me when they found out what I was working on. I am seeking 
out descendants of Washington slaves. How can you understand 
Washington unless you understand his slaves, unless you 
understand the community in which he lived? He lived in a 
highly integrated community, and his slaves had an impact on 
him. I am trying to get at the larger question of why he didn't 
finish the revolution when he had a chance and set the slaves 
free.
    I am finding fascinating new information from family 
historians, people who have been tracing their roots back to 
Mount Vernon and other Washington and Custis plantations, very 
quietly gathering up the documents that paint a fascinating 
picture of what Washington's household was like. We are getting 
information that we would never find from mainstream 
historians.
    In a similar vein, the Freedmen's Bureau records are an 
extremely important link in this chain for people doing that 
kind of research. I am going to use those records even in 
relation to George Washington. Because at the moment the Civil 
War ended, there were a great many former Washington slaves at 
Mount Vernon, and they were--I know that they had almost daily 
interactions with the Federal army, and I am expecting to find 
some very interesting information in the Freedmen's Bureau 
records about conditions at Mount Vernon, and I wouldn't be 
surprised if some of those slaves have something to say about 
family relationships that existed then in 1865 that will tell 
me about family relationships in 1795.
    That is the way it works. You take every shard of evidence 
you can find from those records and then trace it back, and I 
had a great deal of success with that in my book ``The 
Hairstons.''
    The other point I would like to make is that I think a lot 
of people look upon these records and see their importance 
primarily in terms of African American history, and of course 
that is supremely important. But, the other thing is, these are 
some of the best records we have for southern, local and 
regional history, period.
    Now, Tip O'Neill famously said, all politics is local. I 
have come to believe that, to a great extent, all history is 
local and that we really cannot hope to begin to understand the 
history of this country until we understand the history of our 
communities. It is only when you put a microscope on a region 
that you begin to see certain things leap out. You begin to see 
the establishment of businesses and farms and churches and 
schools, and you begin to see really the deepest fabric of 
American life, and that is only when you look at these places 
under a microscope from a local perspective. I know from 
experience that these Freedmen's Bureau records are, in many 
cases, the best records we have for local history in that 
crucial period of emancipation and its aftermath.
    Now, as I mentioned, I made extensive use of these records, 
and it nearly drove me insane. I worked with the records of 
four States: Virginia, North Carolina, Mississippi and 
Tennessee. They vary greatly in their organization. In some 
areas I found records that were very deep, because the local 
officers were diligent and kept a wide variety of records and 
were careful about sending them all into headquarters; and in 
other areas you will just find the most perfunctory monthly 
records and in order to get additional information you have to 
dig really deeply.
    But, I would make an appeal to you when you are considering 
how to organize these records to give special attention to 
indexing them by locality. I think that will be a supremely 
important element.
    I wrote a book on the Hairstons, a family who lived in a 
certain group of counties, mainly in Virginia and North 
Carolina; and it drove me crazy to try to isolate the 
Freedmen's Bureau materials that dealt with those regions. The 
method I finally came up with is that I went through all of the 
monthly reports that were filed generically and I made a list 
of all of the names of the officers and subassistant officers, 
whoever signed a report having to do with those areas; and then 
I went back to the so-called registers of letters with that 
long list of names and copied out all of the index entries for 
each of those officers and then went back to the letters and 
read all of those letters and then looked for asterisks on the 
letters that would indicate that there was another letter 
somewhere else cross filed.
    It went on forever, and there was no central index that 
would allow me to go and find--if you wanted to find out what 
happened in Richmond, a very important place, you couldn't do 
it without laboriously going through this process, which would 
take you weeks and weeks and weeks. I think that would be a 
supremely important contribution, if we could index these by 
locality.
    To that end, I think that--you mentioned the partnership 
with Florida. I think it would be wonderful if the Archives 
could get in touch with researchers in every State where there 
was a Freedmen's Bureau in operation, just get in touch with 
the major universities there and say to them, go into your own 
archives for the last 50 years and tell us which historians 
have done dissertations and theses and other kinds of papers on 
the Freedmen's Bureau. What have they done, what did they find, 
and send that to us so that we can begin to put together a 
massive bibliography of research on the Bureau.
    The other thing is I would hire local researchers in each 
State and say, go through the records that are available on 
microfilm and make us sort of a county by county rough survey. 
What kind of records did they turn in? How good are they?
    I am not talking about doing an index, just a quick survey 
to let us know what is there in a very preliminary way.
    Mr. Horn. Well, a good example are the WPA records of the 
1940's. Have they been helpful to you? State by State.
    Mr. Wiencek. Yes. I used the WPA records. Some of the 
originals are housed at the Library of Virginia in the State 
archives, and I used some of the records here, in the National 
Archives. I also made extensive use of the ex-slave interviews 
that were done during the 1930's and 1940's. See, that material 
is filed geographically, so it is very easy to get at.
    And even though the Freedmen's Bureau records are filed 
State by State, once you get within boundaries of the State, 
the ground falls away beneath you. There is just so much 
material. As I said, if you wanted to find out about what 
happened in Richmond, you couldn't do it without weeks of 
research, just to locate where to begin.
    Mr. Horn. Well, as I get it, Dr. Kurtz, first we have to 
get at the records, we have to microfilm them, and then we have 
to get them in a computer situation where you can have name, 
locality, and all the rest to solve your problem on weeks going 
there, Mr. Wiencek. I can suffer with you on a lot of research 
I have done, and that takes a long time. So, if we can 
manipulate it after you get the base record, why, I think that 
would be very helpful.
    Mr. Wiencek. If I could make one brief comment, the 
chairman alluded before to education. If these records were 
more available and indexed in a rational way, they would be a 
tremendous educational tool for high school and college 
students across the country who wish to work with primary 
sources. In studying a period of extreme importance and 
ambiguity, if you would give advanced high school and college 
students the chance to work with these original records and 
say, all right, go in and pick a region, find out everything 
you can about it and tell me what happened to the Blacks? What 
happened to the Whites? What experiences did they report? What 
did the government do? Just based on these primary documents.
    And then assign them to go a little bit beyond that, maybe 
get in touch with the local historical society or assign 
someone to settle down with a local newspaper and say, well, 
here we have reports of atrocities committed against the Black 
people. What did the newspapers say? Did they report it at all? 
Or how did they slant the news?
    Assign someone else to go into a collection of letters from 
that region and find out, well, what were the planter families 
saying about conditions? How did their assessments match up 
with what we are finding in these records?
    It would be a tremendous educational resource. It is 
difficult to teach that period, I think. The Civil War is 
exciting, and the period right after is hard to get at. I think 
if you did it through these primary documents, it would really 
come alive for students.
    Mr. Horn. Well, you are absolutely right. The southern 
revisionists certainly didn't want to talk about 
reconstruction.
    Mr. Wiencek. No.
    Mr. Horn. So, a lot of that just disappeared. It would be 
fascinating to see if anything was even said in a newspaper 
that related to activity of jailed slaves or whatever.
    [The prepared statement of Mr. Wiencek follows:]
    [GRAPHIC] [TIFF OMITTED] T5060.018
    
    [GRAPHIC] [TIFF OMITTED] T5060.019
    
    [GRAPHIC] [TIFF OMITTED] T5060.020
    
    [GRAPHIC] [TIFF OMITTED] T5060.021
    
    Mr. Horn. Dr. Kurtz, is it possible then where indexing 
could be helping these researchers in terms of the locality and 
different things to get at them from--I think it is exciting, 
if you had students in Richmond, VA, and Long Beach, CA, there 
would be a lot of things to learn from others. Because, in a 
lot of our cities in southern California--I have one city that 
is 85 percent, for example, Hispanic. I have another city where 
part of it would be about 70 percent African American. And my 
colleague here who authored this bill, she has a heavy African 
American population in parts of her district. That would be a 
very interesting thing on the Internet for high school students 
to be talking to each other around the country.
    Mr. Kurtz. Mr. Chairman, let me ask our expert, and I would 
like to say that our agency is fortunate to have an expert of 
the caliber of Regie Washington with us. Regie.
    Mr. Washington. I just want to comment on the university 
efforts and, just like Howard was saying, if you have 
universities involved in a project--once you have the material 
filmed, that is the key, getting the material filmed. Once you 
have it filmed, if a university purchases the microfilm, they 
have a huge tool of laborers in students and you can utilize 
these students in terms of having them go in and do the 
indexing projects and, at the same time, they are beginning to 
learn about the Freedmen's Bureau which--I got a call the other 
day and people hadn't even heard of the Freedmen's Bureau. So, 
here you have an opportunity of a huge labor pool to go in and 
do the indexing, identify those series that are conducive to 
finding information about individuals, utilizing these students 
to go in. At the same time, they are using primary sources; at 
the same time, they are learning about the Freedmen's Bureau; 
and, at the same time, they are doing a good service for the 
African American community and the genealogical community, 
historical community as well. So, I am intrigued by the idea of 
using universities as a pool to get that kind of operation 
done.
    Mr. Kurtz. I think also in the indexing, responding to your 
question, Mr. Chairman, yes, I think the locality aspect of the 
information would be very important to capture. I mean, I think 
it would be essential, actually. It wouldn't make any sense 
without it.
    Ms. Millender-McDonald. Mr. Chairman, I think as the 
chairman and I, both representing California, look at the 
demographics, they change; and it is so important that we do 
this on a locality basis to see from whence the L.A. County was 
and now it has grown exponentially, the minority, just to see 
what happened then, what happened now. I think for students, 
being a former teacher myself, it would be incredibly 
important. I think it is intriguing to have students begin this 
process of look at what happened, whether the newspaper had 
anything on it, all of those other facets that Dr. Wiencek 
talked about, because then we will have students becoming more 
involved in this process, more involved in the historical 
aspects of not only the African Americans but the American 
history in general. I think that is when we can then perhaps 
tap them to become more involved in the political process and 
what we are doing.
    I think all of this has such a revolving interest for all 
of us. Thank you.
    Mr. Horn. Let me ask about another category that comes to 
mind, and that is the church records of birth, marriage, and 
the county records of death, etc. To what degree does that 
apply to a lot of the African mission? I think there were 
churches strictly African American after the Civil War was 
over, and I don't know if those records have been looked at, 
but it seems to me that is another valuable record.
    Mr. Wiencek. Those records are actually very endangered. A 
lot of them are in private hands. What I have run across is 
that I will contact a church and they will say we have records 
going back to the 1940's and we don't know anything before 
that. And then I will make some phone calls and I will find out 
that the granddaughter of the church member has the records 
going back to the 1870's because her grandfather had been 
entrusted with them by a pastor at some point and took them 
home, and they never got back to the church. And this happens 
all the time. So, it takes a lot of detective work to find some 
of these records, and they are very, very endangered, because 
no one knows where they are.
    Mr. Horn. Yes.
    Mr. Burroughs. If I could followup on that. Some of the 
most vital records for doing genealogy are records of birth, 
marriage, and death--birth certificates, death certificates, 
marriage licenses and marriage records. For most of the areas 
that we are talking about, particularly in the south, many of 
those records didn't exist until the 20th century. So when you 
look at the 19th century, the records in the Freedmen's Bureau 
that pertain to marriage and death and birth are some very, 
very rare records that you just cannot get anywhere else. So 
you are able to extend your research into the 19th century, 
because many of those areas didn't have those records until 
much later.
    Mr. Horn. Interesting. How about plantation records? What 
has happened to them? Do they just get burned or taken north, 
or what?
    Mr. Burroughs. Well, fortunately, the University 
Publications of America have microfilmed 1,500 reels of 
plantation records. Those have been available to scholars at 
academic libraries and some public libraries and historical 
societies around the country. That was a 10-year project that 
was just concluded this year, so that is a very, very 
voluminous collection. There are some plantation records within 
the Freedmen's Bureau on a small basis where the Freedmen's 
Bureau took over plantations and then took former slaves to 
work those plantations and were paid for the first time. So, 
there are huge numbers of plantations records that are 
available on microfilm.
    Mr. Wiencek. I got a call this week from an architect in 
central Virginia who said she was working on the renovation of 
a rural house, an old rural house, and they broke open a wall 
and out tumbled bundles of records from slavery time. And they 
said, can you come take a look at these and let us know if 
there is some importance to them? I said, you bet.
    Two weeks ago I was at a plantation that is in the 
Washington family and they said, oh, you may be interested in 
seeing this and they pulled out a ledger from the 1850's that 
listed slaves being paid for certain jobs and the birth of a 
slave child. I said, does anybody know about this? And they 
said, oh, no, it is just in the family. So I have let the 
University of Virginia know about the existence of that.
    There are many, untold thousands of plantation records that 
are still in private hands and embedded in walls or locked in 
trunks that no one knows about it.
    Mr. Horn. Fascinating. You have to be a detective in this 
business.
    Mr. Washington. Mr. Chairman, if I could just comment, one 
of the documents that I brought today that is in one of the 
bound volumes is a census of plantations from the Freedmen's 
Bureau of Records where individuals were working on these 
government plantations and, of course, you can see the names of 
the individuals and it also lists the names of the former 
owners. You might want to take a look at that document to get 
an idea of some of the kinds of plantation types of records you 
might find in Freedmen's Bureau of Records.
    Mr. Horn. I am a book collector and I look at a lot of book 
catalogs and I see occasionally documents of the 1840's, 
1830's, 1810's, slaves and so forth, and there is a price on 
that when the dealer is selling it. I am curious, when you find 
a wall of records, does that family want to turn them over to a 
university or the Archives? What kind of incentives can we put 
out there to get those materials where scholars can have access 
to them?
    Mr. Wiencek. My impression is that they want them to end up 
at a university and to be made available to researchers 
everywhere. After I look at the records, I am going to see if 
UVA is interested and then take it from there.
    Mr. Horn. Does my colleague have any other questions?
    Ms. Millender-McDonald. I do not. Thank you so much for 
this hearing.
    Mr. Horn. Well, you did a great job of bringing it up to 
us.
    Let me just see the changes in the language, if any. Well, 
I thought that we did it with everybody. So, just let us know 
if there is something that we need by the end of today in terms 
of looking at the legislation and get it in to Mr. George, and 
we will see if we need to put it in tomorrow with full 
committee.
    Mr. Kurtz. Thank you for that opportunity. We will, Mr. 
Chairman.
    Mr. Horn. OK. Thank you.
    I think we have covered every question we have here.
    So, let me thank the staff that put this together.
    The gentleman to my left, that Howard graduate you heard 
about from the president, he has been anointed now in public as 
well as going across the stage, J. Russell George, the very 
distinguished staff director and chief counsel of this 
subcommittee; and he has also had great help from Earl Pierce, 
our professional staff member right behind him, who has gone 
and looked at a lot of these records; our director of 
communications, Bonnie Heald, is also back there; and then our 
faithful clerk, Elizabeth Seong; and our intern, George Frazer, 
they are working somewhere here; and Dr. Pearl-Alice Marsh of 
Ms. Millender-McDonald's staff, who has done a lot of work on 
this, and I think she is right back here.
    And then the democratic counsel, Trey Henderson, is always 
helpful and represents the ranking member, whoever it is for 
the day; and Jean Gosa, minority clerk, who knows everybody and 
all sorts of things. The court reporters, Doreen Dotzler and 
Julie Bryan have been with us this morning. So we thank you all 
for your role in this.
    Ms. Millender-McDonald. Mr. Chairman, just let me say, you 
can see how thorough he is. He has really included everyone who 
was a part of this today. Let me just compliment you, Mr. 
Chairman, on how thorough you were in recognizing all of the 
folks who have such a critical part in playing a role in this 
piece of legislation. Again, I thank you for bringing it to 
your committee, thanking all of the staff persons, especially 
my senior policy advisor, Dr. Pearl-Alice Marsh, who has done 
extensive research on this issue. Thank you.
    Mr. Horn. Well, I thank the gentlewoman from California; 
and with those happy words, we will adjourn.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
